 2003 STATUS ASSESSMENT OF COST
ACCOUNTING SYSTEM AND PRACTICES
      Federal Aviation Administration

       Report Number: FI-2005-010
      Date Issued: November 17, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on 2003 Status Assessment                Date:   November 17, 2004
           of Cost Accounting System and Practices
           Federal Aviation Administration
           FI-2005-010
  From:    Alexis M. Stefani                                   Reply to
                                                               Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Federal Aviation Administrator

           The Wendell H. Ford Aviation Investment and Reform Act for the 21st Century
           (AIR-21) directed the Office of Inspector General (OIG) to report annually on the
           Federal Aviation Administration’s (FAA) progress in implementing its cost
           accounting system through calendar year 2004. AIR-21 requires an assessment of
           eight specific areas covering FAA’s methods for calculating and assigning costs to
           specific users and whether those methods are appropriate, reasonable, and
           understandable. This is our fourth annual assessment. See Exhibit A for detailed
           results of the assessment areas. Our objectives were to determine the status of the
           system and to assess each area. Our audit objectives, scope, and methodology are
           presented in Exhibit B.

           Cost accounting is a basic tool that private sector organizations use to improve
           operational efficiency and control costs. FAA needs to complete its cost
           accounting system to help find ways to meet its air traffic control modernization
           and growing operational needs within tight budgetary constraints. For example,
           the $7.8 billion requested for fiscal year (FY) 2005 operations represents an
           increase of about $370 million over FY 2004 appropriations. However, FAA
           estimates that approximately $200 million of the $370 million will be consumed
           by pay increases alone. FAA’s FY 2005 budget request exceeds estimated
           FY 2005 Aviation Trust Fund revenues by about $3 billion.

           A cost accounting system will provide FAA managers and executives with the
           information they need to identify and eliminate wasteful spending, hold or reduce
           operating costs, and better link financial performance to mission objectives. One
           key cost accounting system component is an accurate labor distribution system to
                                                                                                                   2


track workforce costs and improve productivity. For example, a labor distribution
system would help FAA determine how many controllers it needs in total and at
individual facilities. This information is particularly important in light of the
pending wave of controller retirements.


RESULTS IN BRIEF
Since 1996, FAA has worked to implement its cost accounting system at a cost of
about $44 million. Significant progress occurred in FY 2002 when FAA
implemented the system for Air Traffic Services,1 its largest line of business, and
Commercial Space Transportation, another of FAA’s then five lines of business.
Despite that progress, FAA still lacks accurate labor distribution information, and
the Agency is unable to account for all costs associated with facilities and
activities within its lines of business.

The FAA Administrator is committed to completing the implementation of an
adequate cost accounting system to improve the overall financial management of
FAA. In calendar year 2003, FAA did make some progress. It completed
documenting the cost accounting system for Air Traffic Services and began
assigning its FAA-wide general and administrative and Air Traffic Services
overhead pools using a proper total cost allocation base.

Problems connecting the new Delphi financial management system to the cost
accounting system prevented FAA from generating cost accounting information
beginning in October 2003. This “interface” problem also delayed planned
enhancements to the cost accounting system and prevented FAA from deploying
the system to other lines of business. In June 2004, FAA was able to connect
Delphi with the cost accounting system and began processing the backlog of cost
accounting information. FAA expects to eliminate the backlog and resume
production of current cost accounting information in early FY 2005.

In May 2004, FAA received an award for its FY 2003 Performance and
Accountability Report. The award is given to agencies whose Performance and
Accountability Reports (1) comply with requirements for report layout, and (2) are
interesting and informative and achieve the goal of complete and fair reporting.
FAA clearly addresses both its performance and financial accomplishments and
weaknesses in its report. The award, however, is not based on the design or
performance of the cost accounting system and should not be considered an
endorsement of the system’s capabilities.

1
    In January 2004, FAA established the Air Traffic Organization, which combined the former Air Traffic Services and
    the Research and Acquisitions lines of business. There are now four lines of business: Air Traffic Organization,
    Commercial Space Transportation, Regulation and Certification, and Airports.
                                                                                  3


Recent actions by the FAA Administrator provide a solid basis to expect
significant progress to complete the system, including implementing an effective
labor distribution system during FY 2005. In August 2003, the first FAA Chief
Operating Officer (COO) reported for duty. The COO began a major
reorganization in January 2004.

The organization changes associated with the creation of the Air Traffic
Organization (ATO) are illustrated in Exhibit C. The reorganization is intended to
improve air traffic services by increasing efficiency, taking advantage of new
technologies, and accelerating modernization efforts. These actions provide an
important opportunity to focus renewed attention on completing the cost
accounting system, and the COO has both emphasized the importance of an
effective cost accounting system and committed to fully implement the system.
Further, at the conclusion of this audit, the FAA Administrator reaffirmed her
commitment to implement the system, including deploying the labor distribution
system during FY 2005.

The key remaining actions needed to implement an effective cost accounting
system are as follows:

   • Modifying the cost accounting system to reflect the new structure of the
     ATO organization so ATO can get the information it needs to truly become
     a performance-based organization.

   • Assigning actual labor costs by activity and assigning air traffic services
     costs to facilities and activities because knowing the full, accurate operating
     costs of a facility or activity is essential to develop benchmarks or
     performance goals to reduce costs, improve services, and determine
     appropriate staffing levels.

   • Deploying the system to other lines of business because FAA cannot know
     detailed information about its cost of all operations until it completes the
     cost accounting system for all lines of business.

   • Documenting the cost accounting system and internal control procedures
     and periodically reviewing cost assignment methods to ensure that the data
     remain reliable.

   • Linking performance measures to the cost accounting system, which is
     crucial to achieving performance efficiencies and cost savings.

Modify the Cost Accounting System To Reflect the New Organization. In
January 2004, FAA established the performance-based ATO, which combined two
large lines of business: Air Traffic Services and Research and Acquisitions. Their
                                                                                                             4


combined resources include about 38,000 employees and $9 billion. FAA needs
to complete the cost accounting system for ATO, including altering it to reflect the
new organization structure because the establishment of ATO will change
overhead cost pools and allocation bases. For example, groups that use and
maintain air traffic control equipment are combined with groups that purchase and
develop air traffic control equipment, and the cost accounting system must be
modified to account for the changes.

Assign Labor Costs to Facilities and Activities. Labor distribution is the
process of associating labor costs directly with activities and services by requiring
employees to record their time worked on specific activities. Accurate labor cost
information by activity is critical for FAA to effectively manage its air traffic
services and to determine proper staffing at air traffic control facilities. FAA is
deploying a labor distribution reporting system in ATO, which will be used to
manage about $3.8 billion in annual labor costs of air traffic controllers and
maintenance technicians.

Currently, the cost accounting system does not use information from the labor
distribution system to account for labor costs for facilities and activities. Instead,
labor costs in the cost accounting system are estimated based on allocation
methodologies that approximate where labor costs are incurred. Replacing the
allocation methods with actual labor costs by facility and activity from the labor
distribution system would provide more accurate information to ATO
management. The labor distribution system also requires enhancements before it
can capture complete information about the activities worked on by employees.
For example, it does not identify the off-scope activities or collateral duties that
controllers perform. The FAA Administrator has advised us that she is committed
to implementing a labor distribution system that meets the OIG recommendations
by mid-2005.

FAA needs to interface the labor distribution system with the cost accounting
system and redesign the labor distribution system to account for all employee
activities.

Assign Other Air Traffic Services Costs to Individual Facilities and Activities.
FAA could not assign all its Air Traffic Services costs to individual air traffic
control facilities. Knowing the full operating cost for each facility is essential to
develop benchmarks and performance goals that will reduce costs and improve
services. For example, we previously reported2 that FAA programmed its cost
accounting system to assign data processing labor to only 21 of its 61 flight


2
    OIG Report FI-2002-065, “Flight Service Stations Cost Accounting Practices,” December 11, 2001. OIG reports
    can be accessed on our website: www.oig.dot.gov.
                                                                                                                  5


service stations, even though all 61 flight service stations use data processing
labor. This problem has not yet been corrected.

Deploy the System to Remaining Lines of Business. In FY 2003, FAA did not
process or report any costs for the Regulation and Certification or Airports lines of
business because the cost accounting system was not implemented in those lines of
business. FAA had planned to do so during calendar year 2003. However,
problems connecting the Delphi system to the cost accounting system caused a
delay. FAA now plans to deploy cost accounting to the remaining lines of
business by March 2006.

Document the Cost Accounting System and Internal Controls and
Periodically Review Allocation Methods.            FAA prepared a handbook
documenting its cost accounting and internal control procedures for its Air Traffic
Services line of business (now a major component of ATO), as we recommended
in January 2002.3 FAA must now document the cost accounting system and
internal control procedures for all of ATO and other lines of business and
periodically review and update the handbook documentation.

FAA has no policy requiring periodic review of its cost assignment methods to
ensure that the methods accurately distribute costs to specific activities and
facilities. Lack of such a procedure represents an internal control weakness.
Without reviewing procedures for assigning costs, errors may not be prevented or
corrected. For example, FAA could not assign about $1.3 billion of its Air Traffic
Services cost to individual facilities in part because it does not review and update
its procedures. FAA should periodically review its cost accounting assignment
methods to make certain it uses the best data available to assign costs in the cost
accounting system, replaces manual processes with more efficient automated
practices, and complies with Federal accounting standards.

Link Performance Measures to Cost Accounting Information. In FY 2003,
FAA had not developed financial measures for any of its performance goals. In
FY 2004, FAA developed a new strategic cost and performance management plan.
The plan contains more detailed performance measures and goals to improve
operations, but it still lacks financial measures.

To become a performance-based and results-oriented agency, FAA needs to
develop financial measures that show the cost effectiveness of its programs and
activities. For example, FAA cannot measure progress on one of its performance
goals because it lacks the detailed labor cost information to tie costs to the goal of
organizational excellence through air traffic control efficiency. FAA needs to link
performance goals for programs and activities with the cost accounting system so

3
    OIG Report FI-2002-072, “2001 Status Assessment of Cost Accounting System and Practices,” January 10, 2002.
                                                                                       6


FAA can compare the benefits of programs and activities with their associated
costs in order to make informed funding and management decisions.


Summary of Recommendations
To meet these challenges, we are recommending that FAA (1) design and
implement cost accounting for ATO, (2) correct problems in the labor distribution
system to be used by air traffic controllers and link it to the cost accounting
system, (3) develop appropriate methods to assign substantially all costs to
individual air traffic control facilities and activities, (4) document the cost
accounting system and internal control procedures and periodically review the
assignment methods for all lines of business, and (5) implement financial and
performance goals and measures for all lines of business and all facilities and
activities within each line of business.

We provided FAA with a draft of this report on September 20, 2004, and FAA
provided a written response on September 30, 2004. FAA agreed with all our
findings and recommendations and indicated the specific actions it plans to take
for each recommendation (see Appendix). Overall, FAA’s planned actions
adequately address the recommendations and when implemented will help assure
an effective cost accounting system. We are requesting that FAA provide
additional information about its response to three recommendations.

First, FAA stated that it had defined the business requirements for ATO and
developed a schedule to implement the needed changes. We are requesting a copy
of the ATO business requirements and schedule. Second, although FAA agreed to
our recommendation to implement financial and performance goals and measures
for all lines of business and all facilities and activities within each line of business,
FAA’s response did not indicate whether it planned to implement goals and
measures for all facilities and activities using data from the cost accounting
system. Therefore, we are requesting that FAA provide additional information
about its plans. Third, FAA concurred with our recommendation to document the
entire cost accounting system and internal controls for the system. However,
FAA’s response indicates it plans to document the cost accounting system only
when major software revisions occur. FAA has documented only a portion of the
cost accounting system for ATO. Accordingly, we are requesting that FAA tell us
whether it plans to document the cost accounting system and internal controls for
the entire ATO and for other lines of business and provide milestones for
accomplishing this effort.
                                                                                        7


RESULTS
FAA began developing its cost accounting system in 1996. Progress was slow
until 2002, when FAA completed the basic implementation of the cost accounting
system for Air Traffic Services, its largest line of business, and the Commercial
Space Transportation line of business. Problems connecting the new Delphi
financial management system to the cost accounting system prevented FAA from
generating cost accounting information and making improvements to the system
beginning in October 2003.

Information from the financial management system is used as the primary source
data for the cost accounting system, and FAA experienced problems linking the
Delphi financial management system with the cost accounting system. The loss of
the cost accounting system data also contributed to a delay in implementing
important cost accounting system enhancements and the deployment of the cost
accounting system to other lines of business.

In June 2004, FAA began processing the cost accounting data backlog. When
FAA resumes the production of current monthly data, FAA should focus on
completing its cost accounting system as an essential tool for controlling or
reducing operating costs and helping make FAA a performance-based
organization.

For FAA to achieve its goal of operating in a businesslike manner, FAA needs to
modify the cost accounting system to reflect the new ATO, use actual labor costs
for activities, assign all air traffic service and airways facilities costs to air traffic
control facilities, document the cost accounting system and internal control
procedures and periodically review cost assignment methods, and link the cost
accounting system to its financial and performance measures.


Cost Accounting System Needs To Be Modified To Reflect FAA’s
Change in Organization
In January 2004, FAA established ATO. It was created to be performance based
and results oriented and to improve air traffic services by increasing efficiency,
taking advantage of new technologies, and accelerating modernization efforts.
Altering the cost accounting system to reflect the new organization is important
because vast changes have occurred in FAA’s basic organization structure.

ATO combines previously independent functions, which were the Air Traffic
Services and the Research and Acquisitions lines of business. In FY 2003, Air
Traffic Services had resources of about 35,000 employees and $7.6 billion. It
provided air traffic control services and maintained National Airspace System
equipment. Research and Acquisitions had resources of about 3,000 employees
                                                                                      8


and $1.4 billion, and its task was to obtain the equipment used in the National
Airspace System.

The combined resources of ATO include about 38,000 employees and $9 billion.
The creation of ATO will cause changes in overhead costs. For example, groups
that use and maintain air traffic control equipment were combined with groups that
purchase and develop air traffic control equipment. The cost accounting system
must be modified to account for the changes.

FAA also needs to complete the cost accounting system for ATO. ATO cannot
fulfill its purpose of being a performance-based and results-oriented organization
until it has adequate cost accounting information for all of its activities.


FAA Must Use Actual Labor Costs by ATO Activity
ATO’s current air traffic services’ labor costs in the cost accounting system are
based on allocation methodologies that approximate where labor costs are
incurred. Replacing the allocation methods with actual labor costs by activity
from the labor distribution system would provide more accurate cost information
to ATO management. To provide actual labor cost by activity, FAA needs to
connect the labor distribution system with the cost accounting system. FAA plans
to deploy the labor distribution system to air traffic facilities to record actual labor
on a real-time basis nationwide by June 2005.

FAA estimates that about 7,000 controllers could retire from the Agency over the
next decade. Whether FAA will need to replace all of them on a one-for-one basis
depends on many factors, including future air traffic levels and FAA initiatives in
its hiring and training process. Information from the labor distribution system
would help managers to determine appropriate staffing levels at each facility. For
example, the labor distribution system to be used by the air traffic controllers is
designed to capture data such as the mandatory retirement date and retirement
eligibility date for all controllers by location. This information could be used at
the national level to accurately identify when and where vacancies will occur.

Labor distribution is the process of associating labor cost directly with activities
and services by requiring employees to record their time worked on specific
activities. This information is an essential component of an effective cost
accounting system. FAA is deploying the labor distribution reporting system in
ATO, which when fully deployed will be used by about 35,000 employees and
will include about $3.8 billion in labor costs of air traffic controllers and
maintenance technicians. Currently, the cost accounting system does not use
information from the labor distribution system to account for labor costs for
facilities and activities because the labor distribution system to be used by air
traffic controllers is not fully deployed.
                                                                                                      9


The labor distribution system to be used by air traffic controllers has significant
problems. It does not require employees to enter actual start and stop times or
record collateral duties by function. FAA has made a commitment to correct these
deficiencies by June 2005.

FAA is currently testing the labor distribution system at four facilities. FAA
estimates that it will correct the internal control weaknesses and deploy the system
nationwide in June 2005.


Other Air Traffic Services Costs Must Be Assigned to Facilities
and Activities
FAA cannot assign all its air traffic services costs to individual air traffic control
facilities. Knowing the full operating costs for each facility is essential to
developing benchmarks and performance goals that will reduce costs and improve
services.

In FY 2003, the cost accounting system could not assign about 16 percent (or
about $1.3 billion) of the former Air Traffic Services costs to any of the
approximately 400 facility locations. For example, significant amounts of
depreciation, telecommunications, and other costs were not assigned to facility
locations because FAA has not developed proper methods for assigning these
costs. When FAA resumes the monthly production of current cost accounting
information, it needs to focus attention on improving the assignment of costs to
facilities.

Contributing to this problem is FAA’s inability to collect all the source data it
needs to accurately assign costs to individual facilities. FAA needs to collect and
analyze useful data to know the full costs of facility locations and of activities so it
can identify ways to increase efficiency and productivity. For example, FAA
spent $3.8 billion on air traffic controllers and airway facility technicians;
however, it does not know how much it spent for specific activities, such as
directing air traffic, because it has not collected this information. FAA should
explore ways to use the new Delphi financial management system to improve the
collection of source data, such as vendor invoices.

We found instances where FAA has used inappropriate methods to assign cost to
individual facilities. We previously reported4 that FAA programmed its cost
accounting system to assign data processing labor to only 21 of its 61 flight
service stations, even though all 61 flight service stations use data processing
labor. This problem has not yet been corrected. FAA needs to collect the best


4
    OIG Report FI-2002-065, “Flight Service Stations Cost Accounting Practices,” December 11, 2001.
                                                                                   10


source data available to ensure accurate cost assignments to facilities and activities
and ensure its cost assignments comply with Federal accounting standards.


Cost Accounting System Must Be Completed
In FY 2003, FAA did not process or report any costs for the Regulation and
Certification, Airports, and Research and Acquisitions (now a major component of
ATO) lines of business because the cost accounting system was not implemented
in those lines of business.

FAA plans to implement the cost accounting system for the Regulation and
Certification and the Airports lines of business by March 31, 2006, and to
implement the system for ATO by March 31, 2005. Until FAA completes the cost
accounting system for all lines of business, it cannot know detailed information
about its cost of operations.


Cost Accounting and Internal Control Procedures Must Be
Documented and Periodically Reviewed
In January 2002, we recommended that FAA prepare a handbook documenting its
cost accounting and internal control procedures for its Air Traffic Services line of
business. FAA agreed with our recommendation and prepared the handbook for
Air Traffic Services (now a major component of ATO). FAA must now prepare a
handbook of documentation for all of ATO and the other lines of business. In
addition to preparing the handbook documentation, FAA must also periodically
document internal controls and periodically review and update the handbook
documentation.

FAA also has no policy requiring periodic review of its cost assignment methods
to ensure that the methods accurately distribute costs to specific activities and
facilities. Lack of such a procedure represents an internal control weakness.
Without reviews to update procedures for assigning costs, errors may not be
detected, prevented, or corrected. For example, FAA could not assign about
$1.3 billion of its air traffic service cost (about 16 percent of the total) to
individual facilities in part because it does not review and update its procedures.
FAA should review its cost accounting assignment methods to make certain it uses
the best data available to assign costs in the cost accounting system, replaces
manual processes (such as entering source data) with more efficient automated
practices, and complies with Federal accounting standards.
                                                                                     11


Performance Measures Should Be Linked to the Cost
Accounting System
Cost and performance management measures the productivity of activities and
links activities to mission performance, allowing executives to tie performance
goals to the cost of achieving the goals. Using cost and performance management
enables managers to set goals and benchmarks and determine the proper resources
needed for each activity.

In FY 2003, FAA had no financial measures. In FY 2004, FAA developed a new
strategic cost and performance management plan. The plan contains performance
measures and goals to measure and improve its operations—but not financial
measures. A performance-based and results-oriented agency needs to develop
financial measures to determine the cost effectiveness of its programs and
activities. For example, FAA could measure the cost of air traffic control at one
facility and compare that cost to another facility. FAA needs to identify the costs
of activities performed within facilities and set goals to perform the activities more
efficiently, reducing the overall costs of facilities, air traffic operations, and other
essential programs. Linking FAA’s cost accounting system with its cost and
performance management practices for all lines of business is crucial to achieving
performance efficiencies and cost savings and providing useful performance
information for FAA managers.

In addition to developing financial measures, FAA needs to develop performance
benchmarks and measures for its operational activities in more detail.
Performance measures should be developed for all organizations within each line
of business and for each air traffic control facility. Together, financial and
performance goals and measures can transform FAA into an efficient, businesslike
organization.


RECOMMENDATIONS
We recommend that the FAA Administrator direct:

1. The Chief Operating Officer, ATO, to:

       a. Define the ATO cost accounting business requirements, prepare a plan
          with milestones to revamp the cost accounting system to account for
          organizational and overhead allocation changes resulting from the
          creation of ATO, and complete the system for all ATO activities.

       b. Connect the labor distribution system to be used by air traffic
          controllers, with adequate internal controls, with the cost accounting
          system by June 30, 2005.
                                                                                   12


2. The Chief Financial Officer to:

      a. Implement data collection processes and cost assignment methods to
         assign substantially all costs to all lines of business and to all individual
         facility locations and activities, as appropriate, within each line of
         business.

      b. Document the cost accounting system and internal controls for the entire
         Agency and periodically review cost assignment methods to ensure the
         system uses the best available data, replaces manual processes with
         automated processes where appropriate, and complies with Federal
         accounting standards.

      c. Implement financial and performance goals and measures for all lines of
         business and all facility locations and activities within each line of
         business and link the goals and measures to the cost accounting system.

MANAGEMENT COMMENTS AND OIG RESPONSE
On September 20, 2004, we requested that FAA provide comments on a draft of
this report. The Assistant Administrator for Financial Services and Chief
Financial Officer, FAA, provided a written response on September 30, 2004 (see
Appendix). The Assistant Administrator agreed with all recommendations and
provided additional information about specific actions FAA would take to
implement the recommendations. Overall, FAA’s planned actions adequately
address the recommendations and, when implemented, will help assure an
effective cost accounting system. We are requesting that FAA provide additional
information about its response to three recommendations. First, FAA stated that it
had defined the business requirements for ATO and developed a schedule to
implement the needed changes. We are requesting a copy of the ATO business
requirements and schedule. Second, although FAA agreed to our recommendation
to implement financial and performance goals and measures for all lines of
business and all facilities and activities within each line of business, FAA’s
response did not indicate whether it planned to implement goals and measures at
the facilities and activities level using data from the cost accounting system.
Third, FAA concurred with our recommendation to document the entire cost
accounting system and internal controls for the system; however, FAA’s response
did not indicate whether it plans to document the cost accounting system and
internal controls for the entire Agency.

Specific comments by the Assistant Administrator and FAA’s planned actions on
our recommendations are provided below.
                                                                                     13


Recommendation 1(a): FAA concurred. FAA stated that ATO defined its cost
accounting system business requirements during FY 2004. ATO and the FAA
Office of Cost and Performance Management (APF) also worked together to
identify changes to the cost accounting system and defined necessary
modifications to the overhead allocations. Further, FAA stated that it has
established detailed activities and milestones to implement the planned changes in
the cost accounting system. The expected completion date for implementing the
cost accounting system for ATO is March 31, 2005.

OIG Response: We are pleased to hear that FAA completed developing business
requirements for ATO. At our exit conference in June 2004, FAA staff indicated
that the requirements had not been developed nor had they begun to identify the
changes that were necessary to properly design the system for ATO. Therefore,
we are requesting that FAA provide us with a copy of the ATO business
requirements and plan so that we can better understand the planned changes.

Recommendation 1(b): FAA concurred. According to FAA, ATO is testing and
implementing an enhanced version of the labor distribution system for air traffic
controllers to correct identified internal control weaknesses associated with air
traffic controller time reporting. The new system will also report air traffic
controller off-position time in more detail. The expected completion date is
June 30, 2005. The response also noted that the labor distribution system for air
traffic controllers provides labor hour data to the Integrated Personnel Payroll
System, which computes the labor costs associated with the hours. FAA
responded that, beginning in FY 2005, the payroll system will pass the labor costs
to the Delphi Financial Management System.

OIG Response: FAA’s proposed action is acceptable. FAA agrees to complete
implementation of an adequate labor distribution system with proper internal
controls for controllers and link the system to the cost accounting system by
June 30, 2005. The enhanced version of the labor distribution system for air
traffic controllers should improve the accuracy of labor hours reporting.

Recommendation 2(a): FAA concurred. FAA stated that during FY 2004, APF
gathered all cost accounting requirements for individual lines of business.
According to the response, APF is working with ATO to make changes to the cost
accounting system to resolve all OIG recommendations related to cost assignment
methodologies and cost assignment at lower reporting levels. The expected
completion date is March 31, 2006.

OIG Response: FAA’s planned actions meet the intent of our recommendation.
FAA needs to identify all costs of individual facilities and activities within its lines
of business to understand the costs attributable to each facility and understand
whether the facility is operating efficiently.
                                                                                14


Recommendation 2(b): FAA concurred. FAA responded that as part of any
major software program revision, FAA reviews cost accounting allocation steps
and standard operating procedures and performs updates as necessary. In the
future, FAA stated it will annually review cost accounting system business rules
and cost assignment methodologies with the lines of business and document the
reviews. This will help FAA identify areas requiring modification to comply with
recent laws and regulations, meet customers’ evolving needs, and provide accurate
and valid cost data. The expected completion date for implementing this process
is March 31, 2005.

OIG Response: Although FAA agreed with the recommendation, the response
indicates it would review allocation procedures only when software revisions
occur. FAA’s response does not indicate whether it plans to document the cost
accounting system and internal controls for the entire Agency. FAA needs to
document the system for all of ATO and for the three other lines of business.
Accordingly, we are requesting that FAA tell us whether it plans to document the
cost accounting system and internal controls for each of its lines of business and
major staff offices and provide milestones for accomplishing this effort.

Recommendation 2(c): FAA concurred. FAA stated that in FY 2003, it
developed a 5-year strategic plan titled “The Flight Plan.” The Flight Plan
contains four major strategic goals—safety, capacity, organizational excellence,
and international leadership. FAA also said it developed some financial efficiency
and performance metrics in support of the Flight Plan during FY 2004. For
FY 2005, financial efficiency and performance measures will be included in
business plans for all lines of business and major staff offices. For example, the
ATO business plan includes “Total ATO Cost per Controlled Flight Hour,” an air
traffic efficiency measure.

Finally, FAA’s response noted that the Office of Management and Budget has
reviewed many FAA programs using the Program Assessment Rating Tool. These
programs included the Airports Grant Program and Certification and Regulation
programs. These reviews indicated that each of the rated programs has developed
financial efficiency measures that use data from the cost accounting system,
demonstrating linkage between efficiency measures and the cost accounting
system. FAA said it plans to link cost with existing financial efficiency measures
in its programs by September 30, 2006.

OIG Response: In FY 2004, FAA developed a few financial management
efficiency measures for individual lines of business. These high-level measures,
however, are not based on data provided by the cost accounting system. The
financial measures that FAA designed are at too high a level to help it improve the
efficiency of its daily operations. FAA needs more detailed cost accounting
information for its activities and facilities and needs to design financial and
                                                                                  15


performance goals and measures for its activities and facilities that use the cost
accounting data to better manage its operations.

Although FAA agreed with the recommendation, the response did not indicate
whether it intends to implement financial and performance goals and measures for
all facilities and activities within each line of business and link the goals and
measures to the cost accounting system. Therefore, we are requesting that FAA
provide more information describing the specific actions it will take to establish
goals and to measure the productivity and efficiency of individual facilities and
activities and the milestones associated with this effort.


ACTION REQUIRED
In accordance with DOT Order 8000.1C we request that within 30 days FAA
provide additional information. Specifically, we request a copy of the ATO
business requirements that FAA cited in its response; its plans to document the
cost accounting system and internal controls for the entire Agency, with milestone
dates; and additional information about FAA’s plans to implement performance
and efficiency goals for facilities and activities within its lines of business using
data from the cost accounting system, including implementation milestones. The
actions taken or planned on the other recommendations are reasonable and no
further response is necessary.

We appreciate the cooperation and assistance provided by FAA representatives. If
you have any questions concerning this report, please call me at (202) 366-1992 or
Theodore Alves, Assistant Inspector General for Financial and Information
Audits, at (202) 366-1496.

                                         #

cc: Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                   16




EXHIBIT A. RESULTS OF ASSESSMENTS
The Wendell H. Ford Aviation Investment and Reform Act for the 21st Century
(AIR-21) requires the OIG to perform eight specific assessments annually to
determine whether FAA’s methods for calculating amounts in the cost accounting
system and assigning costs to specific users are appropriate, reasonable, and
understandable. The following sections present the results of our assessments as
of December 31, 2003. The statuses of our prior recommendations on FAA’s cost
accounting system are presented in Exhibit D, and a chronological list of
significant OIG reports and testimonies related to AIR-21 assessment areas is
presented in Exhibit E.


Assessment Area 1. Assessment To Ensure That the Method for
Calculating the Overall Costs of FAA and Attributing These
Costs to Specific Users Is Appropriate, Reasonable, and
Understandable
FAA’s methods for calculating its overall costs are reasonable, and amounts
reported in the cost accounting system equal amounts in the financial accounting
system. The cost accounting system uses a combination of data from the financial
accounting and operational data systems to determine overall costs. The cost
accounting system is unable to assign all costs to specific facilities and activities.
Knowing the full cost of operation for each facility is essential to develop
benchmarks and performance goals to control costs and improve services.

In FY 2003, the cost accounting system could not assign about 16 percent (or
about $1.3 billion) of costs of Air Traffic Services (now part of ATO) to facility
locations or associated activities performed within the facilities. For example,
significant amounts of depreciation, telecommunications, and other costs were not
assigned to facility locations because FAA has not developed proper methods for
assigning these costs. FAA needs to focus attention on improving the assignment
of costs to individual facilities.


Assessment Area 2. FAA Cost Input Data, Including the
Reliability of the Administration’s Source Documents and the
Integrity and Reliability of the Administration’s Data Collection
Process
FAA has adequate source documents and cost input data, such as vendor invoices,
for determining the total cost of operations, but the cost accounting system and the
labor distribution system to be used by air traffic controllers cannot collect the


Exhibit A. Results of Assessments
                                                                                    17


information at the detailed level needed to properly assign all costs to facilities and
activities.

Information from the financial management system is the primary source data for
the cost accounting system. In October 2003, FAA’s cost accounting system lost
access to its primary source data when FAA installed a new financial management
system named Delphi. FAA had problems linking the two systems. In June 2004,
FAA began processing the cost accounting data backlog. FAA anticipates
resuming production of current monthly cost accounting data beginning in early
FY 2005.

Besides the temporary loss of source data from the financial management system,
FAA has problems with its data collection process for cost accounting information
about its facilities and activities. Data collection is important so FAA has the
information it needs to accurately assign cost to facilities and activities. For
example, FAA spent $3.8 billion on air traffic controllers and airway facility
technicians; however, it does not know how much it spent for specific activities
such as directing air traffic because FAA has not collected this information.

We have previously recommended that FAA improve its data collection
procedures to ensure that users can rely on the information produced by the cost
accounting system. We made three recommendations to improve data collection
for the Flight Services.        FAA has completed corrective action on one
recommendation and anticipates completing corrective action on the other two in
early FY 2005. FAA’s actions have improved its data collection processes, but, in
our opinion, additional effort is necessary to have adequate data collection
processes for all lines of business.


Assessment Area 3. FAA’s System for Tracking Assets
The Chief Financial Officers Act of 1990 requires the preparation and audit of
commercial-like financial statements for major Federal agencies.                 The
Government Management Reform Act of 1994 expanded the requirement for
audited financial statements and established the requirement for the acquisition
cost of property, plant, and equipment to be reported in agencies’ financial
statements and certified by their auditors. Prior to this legislation, agencies were
primarily concerned with knowing what property they owned, where it was
located, and its condition. Records supporting the acquisition cost of property
were frequently not available.

During FY 2003, FAA continued to improve internal controls over its property
system. Under contract with the OIG, KPMG LLP (KPMG) audited the FY 2003
FAA financial statements. KPMG found that FAA substantially implemented
recommendations associated with KPMG’s FY 2002 property findings, and

Exhibit A. Results of Assessments
                                                                                                           18


KPMG did not identify any new internal control weaknesses associated with
tracking property. However, KPMG identified additional internal control
weaknesses related to property valuation and depreciation, as is discussed in the
next assessment area.


Assessment Area 4. FAA’s Methods for Establishing Asset
Values and Depreciation
Beginning with FY 1998, Federal agencies were required to compute depreciation
expense. When FAA implemented the depreciation requirements, many asset
values were established using estimating procedures, and depreciation expense
was computed manually.1

Our report on the FY 2000 FAA financial statements expressed a qualified
opinion. FAA was unsuccessful in implementing a commercially acquired
property tracking system called the Interim Fixed Assets System, and the Agency
could not substantiate the net book value and depreciation expense for its property.
In FY 2001, FAA corrected reporting errors by reducing the net book value of its
recorded property by $322 million.

For FY 2003, FAA substantially implemented prior year audit recommendations
but did not fully adhere to policies and procedures designed to ensure assets were
recorded in accordance with accounting principles. KPMG identified deficiencies
related to non-integrated systems, additions and disposals, Construction-in-
Progress transfers, leases, and purchases of non-Construction-in-Progress assets.
As a result, KPMG made three additional recommendations in its audit report on
the FY 2003 financial statements designed to strengthen internal controls over the
valuation of assets. As of October 2004, corrective action for two of the three
recommendations has been completed, and the corrective action for the third
recommendation is anticipated to be completed during FY 2005.


Assessment Area 5. FAA’s System of Internal Controls for
Ensuring the Consistency and Reliability of Reported Data
Labor distribution is the process of associating labor cost directly with activities
and services by requiring employees to record their time worked on specific
activities. This information is an essential component of an effective cost
accounting system. FAA is deploying a labor distribution reporting system in
ATO, which when fully deployed will be used by about 35,000 employees and
will include about $3.8 billion in annual labor costs of air traffic controllers and

1
    OIG Report Number FE-2000-058, “FAA Property, Plant, and Equipment,” February 28, 2000, provides details on
    FAA’s basis for establishing its asset values for those assets acquired before October 1994.


Exhibit A. Results of Assessments
                                                                                    19


maintenance technicians. Currently, the cost accounting system does not use
information from the labor distribution system to be used by air traffic controllers
to account for labor costs for facilities and activities because the labor distribution
system is not fully deployed.


Status of the Labor Distribution System
ATO’s current labor costs in the cost accounting system are based on allocation
methodologies that approximate where labor costs are incurred. Replacing the
allocation methods that estimate labor costs with actual labor costs from the labor
distribution system would provide more accurate information to ATO
management about where controllers spend their time and whether productivity
improvements can be achieved. To provide actual labor costs, FAA needs to
interface the labor distribution system with the cost accounting system.

FAA estimates that about 7,000 controllers could retire from the Agency over the
next decade. Whether FAA will need to replace all of them on a one-for-one basis
depends on many factors, including future air traffic levels and FAA initiatives in
its hiring and training process. Information from the labor distribution system
would help managers to determine appropriate staffing levels at each facility. For
example, the labor distribution system is designed to capture data such as the
mandatory retirement date and retirement eligibility date for all controllers by
location. This information could be used at the national level to more accurately
identify when and where vacancies will occur.

The labor distribution system has significant problems. It does not require
employees to enter actual start and stop times or record collateral duties by
function.

• The labor distribution system, as implemented, allows air traffic controllers to
  record any start or stop work time, regardless of actual arrival or departure
  time. The labor distribution system also automatically records employees’
  scheduled start and stop times unless the employee or supervisor makes
  manual entries. In October 2001, we recommended FAA use the labor
  distribution system’s internal clock to record the actual start and stop times and
  provide flexibility for the supervisor to approve variations in the scheduled
  work times as appropriate. FAA agreed with our recommendation and
  anticipates completing corrective action by June 2005.

• The labor distribution system restricts the ability to measure employee
  productivity because the system does not record collateral or off-scope
  activities by function, such as training and briefings. Productivity information
  from the labor distribution system could help managers determine appropriate


Exhibit A. Results of Assessments
                                                                                     20


   staffing levels. FAA agreed to collect collateral duty information by function
   by June 2005.

FAA is currently testing the labor distribution system at four facilities. FAA’s
scheduled date for full national deployment of the labor distribution system, with
the internal control weaknesses corrected, is June 30, 2005. In our opinion, until
these problems are corrected, FAA’s labor distribution system will not identify
how ATO employees spend their time, help identify adequate staffing
requirements, or provide an adequate method of accounting for labor in the cost
accounting system.


FAA Accomplishes Improvements in Internal Control Documentation
But Additional Effort Is Needed for Other Lines of Business
In January 2002, we recommended that FAA prepare a handbook documenting its
cost accounting and internal control procedures for its Air Traffic Services line of
business. FAA agreed with our recommendation and prepared the handbook of
documentation for Air Traffic Services (now a major component of ATO). FAA
must now prepare a handbook of documentation for all of ATO and the other lines
of business. In additional to preparing the handbook documentation, FAA must
also finalize draft policies, establish effective dates for internal control procedures,
and periodically review and update the handbook documentation.


Periodic Review of Cost Accounting Assignment Methods Are
Needed for Good Internal Controls
FAA has no written policy requiring periodic review of its cost accounting
assignment methods to ensure that its methods accurately distribute its costs to
specific activities and facilities. This is an internal control weakness. Periodic
review of assignment methods could improve the assignment of costs to individual
facilities. Without reviews to update procedures for assigning costs, errors may
not be detected, prevented, or corrected. For example, significant organizational
and cost allocation changes are needed as a result of the creation of ATO. Groups
that use and maintain air traffic control equipment were combined with system
acquisition groups, which purchase and develop air traffic control equipment. The
cost accounting system must be modified to account for the changes. FAA should
review its cost accounting assignment methods to make certain it uses the best
data available to assign costs in the cost accounting system, replaces manual
processes with more efficient automated processes, and complies with Federal
accounting standards.




Exhibit A. Results of Assessments
                                                                                 21


Assessment Area 6. FAA’s Definition of the Services to Which It
Ultimately Attributes Its Cost
In calendar year 2003, FAA’s definitions of services, which it uses to attribute its
costs, were reasonable for the Air Traffic Services and Commercial Space
Transportation lines of business. FAA defined four services within its Air Traffic
Services line of business: En Route, Oceanic, Terminal, and Flight Service
Stations. FAA’s services are similar to the services described in the International
Civil Aviation Organization standards and recommended practices. FAA’s
defined services are also comparable to those of NavCanada, Canada’s provider of
air traffic control services.

In January 2004, the Air Traffic Services line of business became a major
component of ATO. We do not anticipate significant changes in FAA’s definition
of services for providing air traffic services because FAA’s current definitions
comply with International Civil Aviation Organization standards. However, FAA
also needs to revamp its systems to account for organization changes resulting
from the creation of ATO and complete the cost accounting system for ATO.
FAA needs to update its definition of services to reflect the new ATO business.

FAA’s Commercial Space Transportation line of business has also defined its
services for cost accounting purposes. These services include issuing licenses for
commercial space launches and re-entries and promoting commercial space
transportation with other Government agencies and private industry. These
services are available to the public, but no user fees are charged. We compared
the Commercial Space Transportation’s defined services, for cost accounting
purposes, with the services it provides to users and determined the defined cost
accounting services to be reasonable.

FAA has not defined its services for the other lines of business, which are
Regulation and Certification, Airports, and ATO other than the former Air Traffic
Services. FAA plans to implement the cost accounting system for ATO by
December 2004 and Regulation and Certification and Airports by March 2005.
FAA should define the services of the lines of business when the cost accounting
system is implemented for them.


Assessment Area 7. Cost Pools FAA Used and the Rationale for
and Reliability of the Bases It Proposes To Use in Allocating
Costs of Services to Users
FAA collected its Agency-wide general and administrative costs and Air Traffic
Services overhead costs into cost pools in compliance with Federal accounting
standards.



Exhibit A. Results of Assessments
                                                                                 22


During FY 2003, FAA began assigning its general and administrative and Air
Traffic Services overhead pools using a proper total cost allocation base. FAA
took satisfactory corrective action on two prior audit recommendations by
changing to a proper total cost allocation base to assign its Agency-wide general
and administrative and Air Traffic Services overhead costs. FAA’s change
resulted in correctly assigning about $93 million of overhead costs to services each
year.

FAA needs to program the cost accounting system to group the production
overhead and general and administrative costs into separate pools for ATO.
Currently, FAA manually segregates and compiles the unique overhead pools after
the fiscal year ends. However, this process should be programmed in the cost
accounting system to produce the information in a timely and accurate manner and
better manage operations. Three years after we recommended that FAA create
overhead pools for production costs and general and administrative costs, FAA has
not implemented our recommendation. Separating production overhead from
general and administrative costs is critical because production overhead must be
added to asset values while general and administrative cost is a current-year
expense.


Assessment Area 8. Assess the Progress of FAA in Cost and
Performance Management, Including the Use of Internal and
External Benchmarking in Improving the Performance and
Productivity of the Administration
Cost and performance management measures the productivity of activities,
enabling managers to set goals and benchmarks, allocate the proper resources, and
determine the number of employees needed for each activity. These practices
would help FAA determine the most efficient practices and establish them at all its
locations. FAA cannot achieve the full benefit of its $44 million investment in its
cost accounting system without implementing cost and performance management
practices linked to the cost accounting system.


Results of FAA’s FY 2003 Efforts Implementing Cost and
Performance Management
Cost and performance management measures the productivity of activities and
links activities to mission performance, thereby allowing executives to tie
performance goals to the cost of achieving the goals. Using cost and performance
management enables managers to set goals and benchmarks and determine the
proper resources needed for each activity.




Exhibit A. Results of Assessments
                                                                                  23


During FY 2003, FAA had 12 high-level, corporate performance goals related to
safety, system efficiency, and organizational excellence. FAA did not have
detailed performance measures and goals for facility locations and activities within
each line of business and did not link financial information to its performance
measures. As a result, during FY 2003, performance goals were not an effective
tool to measure or reduce the cost of operations.

In FY 2003, FAA achieved success in 75 percent (9 of 12) of its performance
goals. Most of goals were related to improving performance and system
efficiency (for example, increasing on-time arrivals at airports). None of the goals
was related to financial efficiency, such as reducing facility or activity costs. FAA
agrees it had only begun a process to develop financial and other efficiency
metrics in FY 2004. Without full cost accounting capability, FAA cannot develop
adequate financial efficiency measures.


New Plan for Implementing Cost and Performance Management
As part of FAA’s September 2003 Flight Plan FY 2004-2008, FAA developed a
new strategic cost and performance management plan that has 36 corporate
performance goals for its 4 strategic goals (that is, increasing aviation safety,
developing greater capacity, enhancing international leadership, and improving
organizational excellence). The goals are to be achieved by cost control initiatives
and management decision-making based on reliable cost accounting information.
FAA’s new strategic plan is a good start, and FAA is moving in the right direction
by developing detailed cost and performance management plans for each line of
business.

We examined FAA’s FY 2004 cost and performance business plans, including the
one for the former Research and Acquisitions line of business that is now a
component of ATO. The Research and Acquisitions cost and performance
management plan is a good start and a good example to follow because it has
performance measures for its organizations and activities within Research and
Acquisitions, but it lacks integration with the cost accounting system.

FAA has developed cost and performance management plans for each line of
business. FAA needs to extend these plans to include detailed cost and
performance management goals and measures for all organizations within each
line of business at the level of programs, activities, and facility locations to
improve resource use FAA-wide and reduce costs. Linking FAA’s cost
accounting system with its cost and performance management practices for all
lines of business is crucial to achieving system efficiencies and cost savings.




Exhibit A. Results of Assessments
                                                                                    24




EXHIBIT B. OBJECTIVES, SCOPE, AND
METHODOLOGY
The OIG assessment of FAA progress in this report responds to the congressional
mandate defined in Section 309 of AIR-21. AIR-21 requires that OIG perform
eight specific assessments to determine whether FAA’s methods for calculating
amounts in the cost accounting system and assigning costs to specific users are
appropriate, reasonable, and understandable. This report summarizes key findings
concerning FAA’s cost accounting and labor distribution systems as of
December 31, 2003.

Our objectives were to provide the status of FAA’s cost accounting system and
our results on specific assessments of each area required by AIR-21. These areas
were: (1) the method for calculating and assigning costs to users, (2) the integrity
and reliability of cost input data, including source documents and the data
collection process, (3) the system for tracking assets, (4) methods for establishing
asset values and depreciation, (5) internal controls over cost data, (6) the definition
of services to which it attributes costs, (7) overhead pools and the reliability of the
bases used for assigning common costs, and (8) FAA’s use of cost and
performance management for improving performance and productivity.

We assessed control risk and tested for compliance with applicable laws and
regulations. Our assessment of control risk takes into account that we did not
specifically examine all internal controls that may be applicable to FAA’s cost
accounting system because the system is still under development. The analyses
we performed of internal controls provided (1) an understanding of the design of
the internal controls, (2) whether the internal controls had been placed in
operation, and (3) whether the internal controls were sufficient to assess the
control risk associated with the cost accounting system.

Our audit work was not an audit of FAA’s compliance with the overflight fee
statute, and our audit results should not be used as a basis to evaluate those fees.

This report also relies on interviews, evaluations of financial records, and prior
work we performed on FAA’s cost accounting system and annual financial
statements. FAA is developing its cost accounting and labor distribution systems
in phases. As additional portions of the systems are developed, we will report on
their adequacy and compliance with Federal accounting standards.

We performed our audit from June 2003 through July 2004 at FAA Headquarters
in Washington, D.C. The audit was conducted in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States

Exhibit B. Objectives, Scope, and Methodology
                                                                     25


and included such tests as we considered necessary to provide reasonable
assurance of detecting abuse or illegal acts.




Exhibit B. Objectives, Scope, and Methodology
                                                                         26




EXHIBIT C. AIR TRAFFIC ORGANIZATION
CHARTS

    2003 Air Traffic Services and Research and Acquisitions
                        Lines of Business

                                  FAA
                               Administrator



           Associate Administrator for     Associate Administrator for
              Air Traffic Services         Research and Acquisitions



   En Route      Oceanic      Terminal     Flight
    Service      Service       Service    Service




Exhibit C. Air Traffic Organization Charts
                                                                  27


                   2004 Air Traffic Organization

                                  FAA
                               Administrator


                                  Chief
                                 Operating
                                  Officer




En Route                           Flight       System      Technical
                 Terminal
& Oceanic                         Services     Operations   Operations


                                                            Acquisition
 Safety       Communications     Operations     Finance     & Business
                                  Planning                   Services




Exhibit C. Air Traffic Organization Charts
                                                                               28




EXHIBIT D. PRIOR RECOMMENDATIONS ON THE
FAA COST ACCOUNTING SYSTEM
We have issued nine reports related to the development of FAA’s cost accounting
system. A listing of those reports and the 30 recommendations follow.

FAA agreed with all of our recommendations and has taken corrective actions, but
not all FAA’s actions resulted in correcting the problems and not all corrective
actions have been completed.

OIG Report FI-2003-043, “2002 Status Assessment of Cost Accounting
System and Practices,” June 3, 2003

   • Establish an agency performance goal to implement cost accounting and
     labor distribution systems that are compliant with Federal standards by
     October 1, 2004. FAA should:

      – Provide the resources necessary and designate a person to be
        accountable for accomplishing the goal. (FAA anticipates completing
        corrective action by March 31, 2005.)

      – Make successful implementation of the cost accounting system a
        precondition to the awarding of annual performance bonuses for senior
        executives and program managers within the affected lines of business.
        (FAA anticipates completing corrective action by March 31, 2005.)

   • Specify and implement the internal controls to be added in the Cru-X labor
     distribution system to ensure that employees accurately record their start
     and stop work times for hours worked and report air traffic controller duties
     by position and collateral duties by function. (FAA anticipates completing
     corrective action by June 30, 2005.)

   • Make FAA-wide cost and performance management practices an Agency
     priority and commit appropriate funding to fully establish these practices by
     October 1, 2004. (FAA anticipates completing corrective action by
     September 30, 2005.)




Exhibit D. Prior Recommendations on the FAA Cost Accounting
System
                                                                            29


OIG Report FI-2003-013, “Terminal Service Cost Accounting Practices,”
January 21, 2003

  • Distribute costs to each Terminal Service facility location and report the
    results to FAA management. (FAA anticipates completing corrective
    action by March 31, 2005.)

  • Change the cost accounting system to assign costs using an acceptable
    method as required by Federal accounting standards. (FAA anticipates
    completing corrective action by March 31, 2005.)

  • Allocate the Air Traffic Services headquarters, Air Traffic Operations, and
    Airway Facilities Operations administrative overhead cost pools using a
    total cost basis. (FAA corrective action completed.)

OIG Report FI-2002-072, “2001 Status Assessment of Cost Accounting
System and Practices,” January 10, 2002

  • Revise the target date for having a fully functional cost accounting system
    considering the interface requirements of the labor distribution and Delphi
    accounting systems. (FAA revised the target date for interfacing the
    systems. FAA has not accomplished interfacing the systems.)

  • Increase monetary and personnel resources to achieve implementation of
    cost and performance management in FY 2003. (FAA anticipates
    completing corrective action by March 31, 2005.)

  • Modify the cost accounting system to allocate the administrative overhead
    costs for FAA Headquarters to lines of business using a total cost base.
    (FAA corrective action completed.)

  • Prepare a handbook of comprehensive and well-documented policies and
    procedures for an adequate system of internal controls for the cost
    accounting system. (FAA corrective action completed.)

OIG Report FI-2002-065, “Flight Service Stations Cost Accounting
Practices,” December 11, 2001

  • Improve the accuracy of the data produced by the telecommunication
    systems by correcting inaccurate and missing telecommunication cost data.
    (FAA corrective action completed.)



Exhibit D. Prior Recommendations on the FAA Cost Accounting
System
                                                                              30


  • Use detailed vendor billing information to assign actual contract
    maintenance costs to each of the flight service stations. (FAA anticipates
    completing corrective action by March 31, 2005.)

  • Compute and assign data processing labor costs automatically to each of
    the 61 flight service stations. (FAA anticipates completing corrective
    action by March 31, 2005.)

OIG Report FI-2002-016, “Air Traffic Services Planned Labor Distribution
Reporting,” October 30, 2001

  • Improve the internal controls within the Cru-X labor distribution system by
    directing that software programs be modified to use the system’s internal
    clock to automatically record the employee’s actual start and stop times and
    provide flexibility for the supervisor to approve variations in the scheduled
    work times as appropriate. (FAA anticipates completing corrective action
    by June 30, 2005.)

OIG Report FI-2001-023, “Status Assessment of FAA’s Cost Accounting
System and Practices,” February 28, 2001

   • Establish the cost accounting and labor distribution systems as a top
     priority and establish the estimated completion date when both systems are
     fully implemented. FAA’s goal should be to have both systems fully
     implemented by September 30, 2002.            (FAA established the cost
     accounting system and labor distribution systems as a top priority and
     established the estimated completion date when both systems would be
     fully implemented. It expects to complete implementation by March 2006.)

   • Increase allocation of monetary and personnel resources to meet the
     established completion date for both systems. (FAA corrective action
     completed.)

   • Review the cost accounting system processes to determine whether more
     efficient methods can be used without a loss of system effectiveness. (FAA
     corrective action completed.)




Exhibit D. Prior Recommendations on the FAA Cost Accounting
System
                                                                             31


OIG Report FI-2001-013, “Design of the Cost Accounting System for
Research and Acquisitions,” December 18, 2000

  • Modify the labor distribution reporting system and procedures to prevent
    hours from being charged to “No Project.” (FAA corrective action
    completed.)

  • Implement written timekeeping procedures to ensure that hours worked are
    charged to the proper projects. (FAA corrective action completed.)

  • Design the cost accounting system for Research and Acquisitions to create
    separate cost groupings for different types of common cost, such as
    overhead and general and administrative expenses. (FAA anticipates
    completing corrective action by March 31, 2005.)

  • Change the basis for allocating overhead cost to projects to a total
    expenditure base that includes all project costs. (FAA corrective action
    completed.)

  • Until the cost accounting system is implemented, estimate the portion of
    overhead cost associated with producing facilities and equipment assets and
    include the cost in work-in-process or other asset accounts until the assets
    are placed in use. (FAA corrective action completed.)

  • Establish procedures to identify commercial and externally developed
    software costs incurred for all administrative systems under development
    and record the cost in work-in-process or other asset accounts in the
    financial and cost accounting system. (FAA corrective action completed.)

OIG Report FE-2000-024, “Cost and Flight Data for Aircraft Overflights,”
December 17, 1999

  • Use FY 1999 cost, including property depreciation cost, and FY 1999 flight
    data to determine overflight costs and compute user fees. (FAA corrective
    action completed.)

  • Update labor standards as a short-term improvement to estimate airway
    facilities labor costs. (Rather than update standards, FAA opted to install
    labor distribution reporting; this recommendation is closed.)

  • Establish a labor distribution system to capture costs for the air traffic
    controller and airway facilities workforces. As part of this process,
    establish a method to assign non-labor airway facilities costs directly to

Exhibit D. Prior Recommendations on the FAA Cost Accounting
System
                                                                            32


     projects.  (FAA has not taken corrective action; FAA anticipates
     completing corrective action by September 30, 2005.)

OIG Report FE-1998-186, “Implementation of Cost Accounting System,”
August 10, 1998

  • Collect appropriate accounting adjustments and project cost.         (FAA
    corrective action completed.)

  • Develop procedures to ensure that labor costs are accurately assigned to
    projects. (FAA corrective action completed.)

  • Determine cost incurred by other agencies and factor into FAA’s full cost
    of operations. (FAA corrective action completed.)

  • Revise the implementation plan for the cost accounting system by
    specifying time and resources necessary to obtain performance data, resolve
    schedule conflicts, and perform critical tasks. (FAA corrective action
    completed.)




Exhibit D. Prior Recommendations on the FAA Cost Accounting
System
                                                                              33




EXHIBIT E. TESTIMONIES AND REPORTS
RELATED TO AIR-21 ASSESSMENT AREAS
Statement of Alexis M. Stefani before the Committee on Transportation and
Infrastructure Subcommittee on Aviation, U. S. House of Representatives,
“Addressing Controller Attrition: Opportunities and Challenges Facing the Federal
Aviation Administration,” June 15, 2004.

Statement of Kenneth M. Mead before the Committee on Appropriations
Subcommittee on Transportation, Treasury and General Government, U. S.
Senate, “Key Issues for the Federal Aviation Administration’s FY 2005 Budget,”
April 22, 2004.

Statement of Kenneth M. Mead before the Committee on Appropriations
Subcommittee on Transportation, Treasury and Independent Agencies, U. S.
House of Representatives, “FAA’s FY 2005 Budget: Opportunities to Control
Costs and Improve Effectiveness of Programs,” March 17, 2004.

“Consolidated Financial Statements for Fiscal Years 2003 and 2002, DOT,” OIG
Report FI-2004-031, January 30, 2004.

“DOT’s Top Management             Challenges,”   OIG     Report    PT-2004-006,
December 5, 2003.

Statement of Kenneth M. Mead before the Committee on the Budget, U. S. House
of Representatives, “Opportunities to Control Costs and Improve the Effectiveness
of Department of Transportation Programs,” July 9, 2003.

Statement of Kenneth M. Mead before the Committee on Appropriations
Subcommittee on Transportation, Treasury and General Government, U. S.
Senate, “The State of the Aviation Industry and the Federal Aviation
Administration,” April 2, 2003.

Statement of Kenneth M. Mead before the Committee on Appropriations
Subcommittee on Transportation, Treasury, and Independent Agencies, U. S.
House of Representatives, “Appropriation Issues for the Department of
Transportation FY 2004 Budget,” March 13, 2003.

Statement of Kenneth M. Mead before the Committee on Transportation and
Infrastructure, Subcommittee on Aviation, U. S. House of Representatives,
“Re-authorization of the FAA,” February 12, 2003.


Exhibit E. Testimonies and Reports Related to AIR-21 Assessment
Areas
                                                                          34


Statement of Kenneth M. Mead before the Committee on Commerce, Science and
Transportation, U. S. Senate, “The State of the FAA,” February 11, 2003.

“DOT Consolidated Financial Statements for Fiscal Years 2002 and 2001,” OIG
Report FI-2003-018, January 27, 2003.

“Quality Control Review of Audited Financial Statements for Fiscal Year 2002,
FAA,” OIG Report QC-2003-017, January 27, 2003.

“FAA Terminal Service Cost Accounting Practices,” OIG Report FI-2003-013,
January 21, 2003.

“Major Management Challenges and Program Risks,” General Accountability
Office Report Number 03-108, January 2003.

“2001 Status Assessment of FAA Cost Accounting System and Practices,” OIG
Report FI-2002-072, January 10, 2002.

“Flight Service Stations Cost Accounting Practices,” OIG Report FI-2002-065,
December 11, 2001.

“Air Traffic Services Planned Labor Distribution Reporting,” OIG Report
FI-2002-016, October 30, 2001.

“Status Assessment of FAA’s Cost Accounting System and Practices,” OIG
Report FI-2001-023, February 28, 2001.

“Design of the FAA Cost Accounting System for Research and Acquisitions,”
OIG Report FI-2001-013, December 18, 2000.

“FAA Cost and Flight Data for Aircraft Overflights,” OIG Report FE-2000-024,
December 17, 1999.

“Implementation of FAA Cost Accounting System,” OIG Report FE-1998-186,
August 10, 1998.




Exhibit E. Testimonies and Reports Related to AIR-21 Assessment
Areas
                                                           35




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Terrence J. Letko                     Program Director

  Michael Weisz                         Project Manager

  Michael Veverka                       Senior Auditor

  Kathleen Huycke                       Editor




Exhibit F. Major Contributors to This Report
                                36




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                37




Appendix. Management Comments
                                38




Appendix. Management Comments
                                39




Appendix. Management Comments
